                                 MEDICARE OUTPATIENT

                                 PSYCHIATRIC SERVICES

                                  National Program Inspection




                                         July 1986
                                Control Number P-09-86-00056




      LF. d Region:                                 Office of Analysis and Inspections
r.:
         Region X Seatt'e,                          Office of Inspector General
      Support Re lons:                              Departmeni: of Health
        Region V Chlca
                                                                and Human S ivjces
         Region 18 Offlcs of Aud!: Beston,
              ..    . . . . . . . . . . . . .. .. .. . . . . .   .. ..




                          TABLE OF CONTENTS


                                                                         Page

MAOR FINDINGS

INTRODUCTION

STATUTORY AN REGULATORY BACKGROUND

BRIEF OVERVIEW:    PHASES I, II   AN III
FISCAL IMPACT OF DIFFERING CARRER PRACTICES

DETAILED CLAIMS RECORDS ANALYSES: PHASE I
       WASHINGTON
       WISCONSIN

CARER SURVEY:       PHASE II

DJiAILED CLAMS RECORDS ANALYSIS: PHASE       III
       NORTHERN CALIFORNIA

METHODOLOGY

APPEND IX                                                                . 21
                                      MAJOR FINDINGS



  HCF A   has interpreted      the    statutory limitation on Medicare Part B outpatient
  psychiatric services in two ways:


                   hospitals and
        since the 1965 law ,   to 


        settings such as commUni
        outpatient
                                          y
                                           physician-rendered services provided in outpatient
                                                    mental health centers,

        since 1982 , to both physician and nonphysician
                                                                             physicians ' offices or


                                                                      services provided specifically
                        ive Outpatient Rehabilitation Facilities (CORFs).
        through Compr eKe

  When developing the CORF regulations HCF A admitted that this dichotomy exists,
  but argued that it   would be " too          drastic" a step to limit reimbursement that has
  been available since -the 1960s when the original regulations were written.                         Thus
  only CORFs are covered by the stricter limitation as Congress intended.
   The results of the inconsistent      regulations and their policy interpretations are
                                                                         billing practices.
   variations in carriers ' claims administration as well as in provider 


   All but four   of the nation          carriers        apply the limit to both physician- and
   non physician-rendered services in all            settings. InCY     3, the four who have not
   applied the limit to nonphysician care paid                approximately' $3.      million for care
   exceeding the limit.

   Many carriers reported that overutilization and billing problems occur
                                                                       who
                                                                          primarily in
                                                                           have very
   community mental health centers (CMHCs).      Even   those carriers
   tight controls over the outpatient psychiatric limit continue  to   monitor CMHCs
   closely. Phases  I and II of this study found  that  most  costs for                         nonphysician
   services exceeding the   limit occurred in CMHCs.
RECOMMENDA TIONS
                                                                             the
   HCF A should revise the regulations and carrier instructions implementing
   statutory limitation of outpatient psychiatric              services   (a) to reflect the original
     ongressional intent,      e., t        cap both physician-           and    nonphvsician-rendt=1 ed
     rviipc: iir:d (b) to assure         istent administrative pra         tic     among the nation
   carriers.
   HCF A should advise carriers to establish review procedures to monitor
                                                                                                  utilization
   and billng patterns in community mental health centers and take                                corrective
   actions as necessary.




                                                                                        ;t::"
                                       INTRODUCTION



When Congress passed the Medicare Part B legislation in 1965, it included a statutory
limitation on outpatient psychiatric services. In developing the program regulations
the predecessor   to the Health Care Financing Administration (HCF A) interpreted the
statute liberally and imposed the limit only on physician-rendered services, allowing
unlimited nonphysician services rendered "incident to " a physician   s care. In 1982
when developing regulations for Comprehensive Outpatient      Rehabilitation Facilities
(CORFs) based on the same statutory language HCF A applied the limitation to both
physician and nonphysician services. In doing so, HCF A admitted that this broader
                                                                                    it to
application was in keeping with Congress s original intent , but chose not to apply
all outpatient psychiatric services.
In 1984 , the Office of Inspector General began to study the         federal policies   and
practices which implement the statutory limitation in order to determine the fiscal
implications of (a) HCF A'   regulatory position and (b) the carriers ' administrative
practices. The study was undertaken in three phases.     Phase I of this study focus
    computerized analyses of the carriers     ' Part B
                                                     claims records for the states
Wa.snmgton , wisconsin, New Hampshire, Vermont , Massach  setts and Connecticut , plus a
 eYiew of HCF A' s regulatory position. We ound that the carriers administere
                                                                                  a th
psychiatric coverage limitation in significantly   different ways.
                                                                                             ..
                           ST A TUTOR    Y AND REGULATOR Y BACKGROUND


Section l833(c) of the Social Security Act places a cap on each Medicare beneficiary
psychiatric outpatient costs incurred during a calendar year. Specifically, the statute
allows as incurred expenses $312. 50 or 62t percent of the charge , whichever
smaller. (As applied, . 625 x $500 = $312. 50. It should be noted , however , that the
amount actually paid is less because each beneficiary s copayment of 20 percent
reduces the amount to $250 (i. e., Medicare reimburses 80 percent of the allowed
$312. 50 ).

The statute places a limit on expenses               incurred in connection with treatment of
mental, psychoneurotic and personality disorders.           It does not restrict the psychiatric
limit to physician          services. Further , S    ection l861(s) defines medical and health
services as both h           sicians ' services an     those. services and su       lies "furnished

  clent to         a physician   s professional service, of kinds   which are . commonly furnished in
 nysicians' offices and are commonly rendered without charge or                        included in the
phys icians ' bills

It was HCF A   regulation rather than the statute which introduced the distinction
between physician and nonphysician services and applied the psychiatric limit only to
direct physician care.           Specifically, the regulation (42   C. F . R. 405. 243 as it          read prior
to December 15, 1982) stated:

      Expenses incurred for services . furnished by health personnel other than
      physicians, including home health services and outpatient services... are not
        biect to       LJrh limitation even
                                     though the services are in connection with a
      condition which is included in the definition of mental , psychoneurotic, or
      personali ty     disorder.
In 1982, HCF A was faced with applying the same statutory limitation to regulations for
Comprehensive Outpatient Rehabilitation Facilities (CORFs).    doing so, HCF A    In
eliminated the distinction between physician and nonphysician services. In the
preamble to the proposed CORF regulations, HCF A discussed its interpretation of
Section l833(c): 

                           the statute and the regulations originated when the
      The variations between
      Medicare program was first developed in the late 1960s. At that time , the
      decision was made to limit the . psychiatric services limitation to only
      physicians '     services (becauseJ...physicians ' services generally represent the
      greatest cost factor in the outpatient care of psychiatric illnesses....
      Significant changes in the practice of medicine and in the Medicare program

      over the last 15 years no longer support this rationale. 47 Fed.
      Reg. 20095- 20096, May 10 , 1982.


 Although HCF        A chose to apply the $250 payment cap to           all psychiatric services (i. e.,
 both physician and nonphysician) provided by a CORF ,               it did not   extend the limitation
to all Part B outpatient             psychiatric services , e.g. , those provided in a physician
office or a community            mental health clinic. HCF A continued in the preamble to the
 proposed regulations to say, " We believe that would be too drastic a                  step to take at
 this time since it would limit reimbursement that is currently available....
The preamble to the    final CORF regulations reaffirmed that the justification for the
previous regulation was no longer valid:
    As explained in the preamble to the proposed rules, the regulation did not
    conform literally to the language of the statute, which does not, restrict
                                                                       we  do
                                                                               the
                                                                                not
    pyschiatric limit to physician services.   As further discussed
                                                                   program to
    believe it would be in the best interest of the public and theavailable
    extend the - limitation to other benefits that have long been           to
    beneficiaries. Accordingly, we proposed to amend the regulation
                                                                   by applying
    the psychiatric  limit to CORF services (whether furnished by physicians or
    nonphysicians) as required by    law.  This is not a limit separate from the
                                                                             1982)
    limit on physicians ' services. (47 Fed. Reg. 56287- 56288, December l5,

Thus , the   final regulations state that "   the psychiatric services limitation applies to
physicians services and CORF services (furnished by physicians or non physicians)...
(42 CFR 405. 243(b))
The Region X Office     of General Counsel, in an informal review of the law and
regulations, said that "   we  agree with HCF A'    conclusion (in the 1982 CORF
                                                                    the- board limit
regulationsJ that the intent of the statute was to place an across-
all expenses incurred in connection with mental illness....
Yet, this dichotomy    exists between Congressional
                                              intent and Departmental policy and
                                                                   extent of the
practice. Our study documents the effect of the dichotomy and the
variations among provider billing patterns and carrier administrative practices in
applying the statutory limitation.
         , ,

                           BRIEF OVERVIEW:        PHASES I, II AND 


This study progressed sequentially, since the findings from the initial phases led tobegan
                                                                                       new
areas of inquiry. The Region X Office of Analysis and Inspections (OAI)
                                                                               in provider
studying the issue after Region X HCF A alerted our office to discrepencies
billing practices for outpatient mental health services                       in Washington State. To
determine the extent of the         discrepencies, we began              a   comparative analysis    of the
Washington and - Wisconsin Part B claims records. During this period , the Region
Office of Audit " researched the issue at three carriers who administer Part
                                                                             B in New
Hampshire, Vermont, Connecticut and          Massachusetts.

The five carriers studied       in Phase I administered the            psychiatric coverage limitation in
significantly different ways:
- Washington    Physician Services applied the               to physician-rendered care
                                                           limit 0


   a owmg VIr ua y un mIte nonp ysiclan services.       Me  icare B paid a tota
   million for outpatient - psychiatric services , of which $2.            was for '

                                                                                17 millon



   exceedin

- New Hampshire!Vermont Health Service    applied the limit only to physician-rendered
   care. Medicare B paid a total   of $588, 996 for outpatient psychiatric services, of
   which $310, 000 was for care exceeding the limit which was provided in Community
       Mental Health clinics.
- Wisconsin Physician Services a pplied the limit to both physician and
                                                                           nonphysician
  services; automatically curtailing-' the volume and cost o care. ' Icare      pal
  total of $536, 477 for outpatient psychiatric care, of which $54 980 was for
                                                                                   care
       exceeding the coverage limit.
                            Shield did nnt rli   ting                              sician and non   physician
- Massachusetts Blu	
         rvices      automaticall                  .t
              254 for outpatient psychiatric services ,
                                                        uish between



                                                        of which
                                                                both. Medicare B paid
                                                                 none was for care
                                                                                  a total
                                                                                   exceeding

       the limit.

       Connecticut General did distinguish between physician and nonphysician
                                                                          78l
                                                                                    care but

       applied the limit to both. Medicare B       paid a total  of $477,     for outpatient

       psychiatric care, of which $9, 9l6 was for nonphysician services.


 During Phase II, we surveyed the remaining carriers who were not part of                      the Phase
 analyses to inventory their specific procedural applications in processing outpatient
 psychiatric claims. All but three           said they
                                               apply the coverage limitation to both
 physician and non h siclan c iatriC servlces. wo carriers . ue hle                                   ic:   d




 app
          a lfornia
    ansas and Blue Shield of Utah, were convertin their coding systems an
 know how their new s stems
               the limit. Since
                                       wou         the limit. The t
                                                                 siciari and
                                                                                lrnonphysician
                                                                                    exce serVices in
                                    this is one of the largest carriers in the country, we
        ceeded to determine the fiscal implications        of this administrative practice.


 Thus, in Phase II, this Northern California carrier s claims records were
                                                                                analyzed.
 Although the available computer files contained several gaps , resulting in incomplete
 data, we    determined that Medicare B paid at least $4 008 256 for outpatient
 psychiatric services , of which at least $646 808 was for care exceeding the
                                                                              limit.

 Detailed analyses of each       phase of this study are reported later.
                           FISCAL IMP ACT OF DIFFERING CARRIER PRACTICES



                            Medicare carriers-- Washington ,             New Hampshire/Vermont , and Northern
Currently, three

California--pay             virtually unrestricted             costs for     nonphysicians services furnished
"incident to " a            physician        care. OIG staff analyzed the claims records of these
carriers.
                                                       TABLE 1
                                        CY 1983 MEICARE PART B PSYCHIATRIC DATA




                                                                            ota1 B                           Paid )$250
                                                ota1 B                          Outpatient
                                                                          Outpatient                       of Outpatient
                      T ota1 Part B         Psychiatric Psychiatric Psychiatric Dollars                     Psychiatric
                                              Payouts         of Total      Payouts        Paid )$250        Payments
                           Payouts

                                            $4, 099, 057        1.9       $2, 968 883      $2, 167 602         73.
      Washington           219, 625, 401*

      New
      Hampshire/                                                             588, 996         310, 000         52.
      Vermont               74, 437, 854*       823, 287        1.1

      Northern                                                            $4, 008 256         '646 , 808       16.
      California $1, 275, 164, 545          $7, 633, 064



       *Unpublished Data prepared by Health                       Care Financing Administration ,              Bureau

       of Data Management and Strategy.

 Since the Utah carrier s old coding system also excluded nonphysicians
                                                            psychiatric
                                                                          from the limit
                                                                        care in CY 1983,
    estimate it paid as high as $l, 03l, 242 for outpatient
                                                                             estimates of
            752, 807 exceeded the limit. Table 2 shows the high and low
 we

 of which 


 Utah outpatient psychiatric expenditures, using the Washingtonbased
                                                                 and Northern California
 carriers actual data as the models.   The  high  estimates are       on the Washington
 experience and the low estimates on the       Northern California experience. Although
 Blue Shield of Karsas does not know whether its new coding         system will apply the
 limit to nonphysician services
, its old system did apply the
                                                               limit to both physician and
                                                                          any estimates of
 nonphysician care. We, therefore, are excluding this carrier from
                                       psychiatric
 expenditures exceeding the outpatient 
                                  limit.

                                                  TABLE 2
                             CY 1983 ESTIMATES OF UTAH PSYCHIATRIC EXPENDITURES


                                                                             Estimated
                                                         Estimated               Total B                   Estimated
                                                           Total B           Outpatient                    Outpatient
                       Ac tual Total B               Psychiatric            psychiatric                     Dollars
                              Payouts                      Payou ts              Payouts                   Paid )$ 250

                                                   (h)         424 369     (h)          031 243       (h) $          752 807
      Utah                           966, 781
                                                                                                                         020
                                                   (1)         449 801     (1)          236 146       (1)

              (h) = high             (I = low

                                                                                                          ::   - -




Thus, we estimate           that   for these four carriers, Medicare Partpsychiatric
                                                                          B paid between
                                                                                     limit:
        million and $3. 9   million for care which   exceeded the outpatient
$3. 2
                                                             High                       Low

                                                          $ 2, 167 602             $2, 167, 602
        Washington (actual)                                   310, 000                 310, 000
        New Ham pshireIV ermont (actual)                      646, 808                 646, 808

        Northern California (actual)                          752, 807                   38, 020

        Utah (estimate)

                                                          $ 3, 877   217            $3, 162, 430


CONCLUSIONS

A t the time it passed the Medicare
                                             legislatio   in the 1960s, Congress approved Part

coverage of                                               with the proviso that such services be
             outpatient psychiatric servicesper beneficiary per year. Implementing
 limited to an actual payment cap of $250        delivered directly by physicians, thus
 regulations applied the limit to only those services
                                            unlimited care rendered by their nonphysician
 enabling physicians to bil Medicare for                                     either a
 staffs.   Essentially, psychotherapy         may be
                                                  provided by             physician or a
                                                    the treatment be counted against the
 nonphysician, but the Department requires that           for unlimited non                        physician
 limit only when provided by the physician. Medicare pays                                       that limit
- services until the physician-rendered services reach the             payment cap. Once
 is reach , M edicare ceases to pay
                                         for  any outpatient               psychiatric services for the
                                                                                                     CORFs
 remainder of the calendar year.
                                 HCF A interpreted the statute differently for 

 versus all other outpatient settings.
                                                                  HCF A' s liberal regulations
 Most of the nation s carriers report that they do not follow
                                                           CORF settings. In other words,
 in applying the outpatient psychiatric limitation in non-               services. The four
 they apply the limit to both physician-     and nonphysician-rendered
 carriers who do not apply the limit   to nonphysician services until theexceedin
                                                                           physician-rendered
                                                                                     the limit
 services hit the payment ceiling
                                    paid more than $3 million for care                      is,
                                             practicmg
 in CY 1983. The fact that carriers are s beneficiaries. isparate procedural  applicatio
     nd o itself, inequitable to the nation




                                                                                         R-,­
                            DETAILED CLAIMS RECORDS ANALYSES
                            PHASE I: WASHINGTON AND WISCONSIN
                                                    



WASHINGTON
                                                                    260 Washington beneficiaries
During calendar year 1983, Medicare Part B reimbursed from  8,   679 providers. Table 3
$4, 099, 058 for - all psychiatric services they received
                                             inpatient and outpatient services. The ratio
sho\\s the amounts allowed and paid for

                                        is 1:3.

of inpatient to outpatient expenditures 


                                         TABLE 3
                          WASHINGTON PART B PSYCHIATRIC CLAIMS

                                         CY 1983
                                                       Amount                  Total $
                                                       Allowed                   Paid

     Inpatient diagnostic
                                                      $ 5, 448
                                                           200                $ 4, 046
                                                                                   128
                                                                               1 , 126 ,
                                                       1,   447 ,
     Inpatient therapeutic                                  173, 033              125, 521
     Outpatient diagnostic                                  681 687               843. 362
     Outpatient therapeutic
                                                       $5, 307 368            $4, 099, 057
       Total li

 The carrier                                     between physician- and nonphysician-
                billing procedures distinguishportion   of services given by doctors and
 rendered services, enabling us to identify
                                         '
                                             the
                                            care by nonphysician  staff. Since the cap
 those given "incident to " the doctors       also diagnostic procedures, we focus our
 excludes not     only inpatient charges but
                                          services.    Table 4 compares the
                                                                               doctor and

 attention on the outpatient   therapeutic                          therapeutic care.
                            beneficiaries reimbursed for outpatient 

 staff expenditures for all

                                           TABLE 4

                                PHYSICIAN AN NONPHYSICIAN

                            OUTPATIENT THERAEUTIC EXPENDITURES

                                  IN WASHINGTON , CY 1983



                                   physician          Nonphysician
                                   Services             Services                  Totals
                                                                489                        793*
      No.      beneficiaries              945
                                          580              133, 533                  153, 113
      No.      services                                $2, 553, 911              $2, 843, 36f
      Amount   paid                 $289, 451



                                                count of beneficiaries,
                                                                        some of
         *This total represents an unduplicated
                                             physician services.
         whom received both physician    and non

                                                        the $250 limit. Table 5 compares
                             the dollars spent exceededbeneficiaries
   Approximately 88% of                                              whose Medicare Part B
   the doctor and staff expenditures    for only those 

   reimbursement exceeded $250.

                 . -




                                         TABLE 5

                       CY 1983 OUTPATIENT THRAEUTIC EXPENDITURES

                             FOR BENEFICIARES EXCEEDING CAP

                                        WASHINGTON




                                  Physician         Nonphysician
                                  Services             Services                   Totals

               beneficiaries              437                  459                         466*
     No.                                                                            127 736
     No.       services                2, 757             124, 979
     Amoun t   paid               $ 34, 293           $2, 460, 041               $2, 494, 334


        *This total represents an unduplicated count of beneficiaries ,           some of
        whom received both physician and nonphysician services.
                                                    outpatient therapeutic payout , with
Thus , 25% of the beneficiaries received 88% of the
an   average payment of $1, 701, or $1 451 over the         cap. If we were to
                                                                            include the
                                                                  This is  an important
outpatient  diagnostic costs, the figure would be even greater.
                                                                                           diagnostic
consideration because some therapeutic procedural codes allow for continuing
                                                                    in numerous cases.
evaluation and are excluded from coverage under the payment cap
If there is a question whether such       a service is therapeutic or diagnostic, the benefit
of doubt leans toward diagnostic          judgment call.   Circumstantial evidence plants a
                                                                      administrative
nagging suspicion, however , that some providers may be abusing this
                                                  17 out of 22 consecutive days and
allowance. For example, one doctor saw a patient                   paid by Medicare
biled Medicare only for diagnostic services. Thus, none of the $724
was counted against the cap as therapeutic.
From the claims record
                                                                    , it looks like this
                                                                                services
patient was "diagnosed" almost every day for three weeks, and none of the
was billed as psychotherapy.
                                                    , when compared to the practice

This practice pattern appears to be minor , however                            services.
among some providers of billng almost exclusively for nonphysician-rendered
                                                                     exceeded   the cap
The 1 466 beneficiaries whose outpatient therapeutic reimbursement
were treated by 34 doctors, 5 of whom did not bill at all for their direct services and
                                                                        , one provider
many of whom     billed rarely for their direct services. For  example
recei ved $598 786 for treating 253 beneficiaries. Interestingly, the
                                                                      doctor was paid
only $456 for physician services and only for 8 patients. He
                                                                               did not bill
                                                                                for any
                                 the
                                 remaining 245        patients. He
                                                                received  $598  330  for
direct physician       care to
                                                                          for every $1
nonphysiciancare. That equates to $l, 3l2 in nonphysician reimbursement
                                                                    s patients received
in physician reimbursement. Furthermore, 213 (84%) of this provider
                                                                 these were  billed for
more than $250 for outpatient therapeutic care.    Only 6 of
                                                                    care. Of                      the
 direct physician  care, while all 213 were billed for nonphysician
 $594 137 reimbursed, only $441 was for physician care.
                                                            Payment for these                     213
                                                                                                  ver
  Qverlimit" beneficiaries ranged from $252 (i.e., $2 over limit) to
 limlt .
                                                   limi t beneficiaries received 93% of
                                                                                          the
 T en of   the 34 providers who treated over494,
 over limit dollars (i.e., $2, 3l4 752 out of $2
                                                     334). Table 6 shows the billng pattern
 of the ten highest paid          providers of  outpatient  thereapy to beneficiaries whose
                                                                                 ental Health

 reimbursement exceeded the $250 cap. Most of            these are Community


 Centers.
                 - -




                                                       TABLE 6
                                             WASHINGTON , CY 1983

                       TEN HIGHEST PAID PROVIDERS OF OUTPATIENT THRAY

                           EXPENDITURES FOR OVERLIMIT BENEFICIARES

                             PHYSICIAN VS. NONPHYSICIAN SERVICES



                         Ph, sician Treatment                             Non hvsician Treatment
                Dollars        iF   Services      iF   Persons     Dollars       iF   Services            iF   Persons

provider               441                                           593, 696         19, 183                    213
Provider   Y           178                                           442 982          17 , 560                   211
Provider   X           836            111                            286 462              086                    128
Provider   W           656                                           257 136              , 828                  140
Provider   V       2 , 435            277                            174 01l            6 , 534                  151
Provider   U
                                                        173 392                393                  149
Provider   T            750                                          172, 654               975

Provider   S            195                                          114, 946               818

                        344                                           52, 845           1 , 842

Provider   R
Provider   0            470                                           39. 323               852


  TOTALS         $ 7. 305             652               200       $2. 307. 447        114. 071                 1.193


In summary, the data reveal that Medicare Part B is paying a few
                                                                     providers the bulk
of the outpatient therapeutic dollars spent in Washington.  Table  7 shows the rate of
payment per doctor. Please note that these     figures include  care  for both over limit
and under limit beneficiaries. Thus , 85% of  the doctors  received  3%  of the payout
while 1 % of the doctors received 83% of the  payout.

                                                       TABLE 7
                                             WASHINGTON , CY 1983
                                          OUTPATIENT THERAEUTIC CAR
                                            PROVIDER REIMBURSEMENT



                                     iF   Doc tors      Percent of Amount Paid            Percent of
      Ram!:e of Payout               in Ran2e            Doctors    to GrouD            Dollars Paid

     )$0 - $1.000                           572            84%           84. 269
     )$1. 000 - $5       000                               12%          157. 343

     )$5 000 - $10. 000                                                  54. 523

     )$10 000 - $50. 000                                                201 040

     )$50. 000                                                          346 188                    83%



       TOTALS                               679            99%*         843. 363                 101%*

     *Not exactly 100% due to                rounding.
WISCONSIN

During calendar year 1982, Wisconsin
                                                     providers billed Medicare Part B a                 total of

$4, 130, 385 for   psychiatric services.             (CY    1982 tapes were      the most recent ones
                                       Table 8 shows the amount allowed (i. e., the
available at the time of the analysis.

reasonable charge) and the amount paid for
                                           inpatient and outpatient services. The

                                                                2:1.
ratio of inpatie t to outpatient expenditures was 


                                         TABLE 8
                            WISCONSIN PART B PSYCHIATRIC CLAMS

                                                    CY 1982


                                                  Amount Allowed               Total S     Paid

                                                        685, 353                       196 447
     Inpatient                                                                         536, 477
     Outpatient                                         369, 234
                                                    S3, 054 587                        732, 924
         Total "

There is a variety of    reasons why the amount paid differs    from the amount
allowed-e.g., the 20 percent copayment was required of
                                                       the beneficiary, the annual
                                                    plan served as primary payor.

 deductible had to be paid and/or another insurance 

                                                                         services and 3, 259 for inpatient
 Medicare reimbursed 6, 694 beneficiaries for outpatientof individuals who received
 care. These totals undoubtedly includeFew
                                        some     duplication
                                           of these beneficiaries received outpatient
 both outpatient and    inpatient services.
                                             . As Table 9 reveals , only 331 persons, 5
 care that exceeded the $250 expenditure cap                       than $250 for that
 percent of those reimbursed for outpatient care, received more
 care.
                                              TABLE 9
                                    PAYOUT FOR WISCONSIN PART B

                                  OUTPATIENT PROCEDURES , CY 1982



                        Number of                  Percent of           Amount Paid

     Range of                                                                             % Dollars Paid

      Payout          Beneficiaries               Beneficiaries          for Group

                               363                   95%                   398. 837               74%
    )SO- S250                                                             $ 90 596                17%
    )S250- $500                272
                                                      (1%                 $ 21 595

    )$500- $ 750                                                          $ 11. 893

    )$750- $1000                                      (1%
                                                      (1%                 $ 13, 556

    )$1000
                               694                   100%                 S536, 477           100%
         TOTALS
                                                                       exceeded $250. Even though 5% of
  Approximately 26% ($137, 640) of the dollars spent, the average payment for these
  the beneficiaries received 640
                               26% of the payout
                                   i- 331) or $166 per beneficiary over the $250 cap.
  beneficiaries was $4l6 ($137                  maximum amount of questionable claims
  the payment cap were           applied strictly, the                                             640 - ($250 x
  would be $54, 890or 10% of all outpatient psychiatric expenditures ($137, some claims
                                                               extract why
  331) = $54 890). We cannot determine from the computer
  exceeding $250 were paid and others were not.
                                                  We   can identify the many cases where
                                                           , but we cannot identify the
  claims where rejected once the $250 cap was reached
  reasons why others were paid                in excess of the cap.
During 1982,  the Wisconsin carrier did not distinguish by procedure code between
                                                              we cannot determine
physician-rendered and nonphysician-rendered services. Thus , doctor or by a staff
whether the over limit services actually were provided by the
nonphysician. We were told, however,     that midyear in   1983, the carrier added specific
                                                                          this change
procedure codes to identify staff-rendered services. The extent to which
affected total outpatient practice patterns and costs is unknown.   For CY  1982, we
can identify , however, which procedures were billed most frequently. Table 10 shows
that individual -medical psychotherapy (varying from 15- 60 minutes) accounts for 96% of
all billed services.



                                         TABLE 10
                                   PROCEDURE FREQUENCY

                                   WISCONSIN, CY 1982
                 ( excluding inpatient hospitals as the place of service)
                                                        Services      Percent of
                                                      Rendered       Total Volume
                                                        34 578             96.
                                                           387               1.0%
                                                           256

                                                           252
                                                           208
                                                           223

       TOTALS                                           35 904             100.

Viewed from an expenditure perspective      (see Table 11), again individual psychotherapy
accounts for 95% of all dollars    paid for outpatient psychiatric care.


                                         TABLE 11
                                AMOUNT PAID PER PROCEDURE
                                   WISCONSIN , CY 1982
                  ( excluding   inpatient hospitals as the place of service)


                                                                       Percent of
                                                     Dollars Paid     Total Pa out
                                          minutes)     $508 003             95.
                                                       $ 11 340
                                                           9 823
                                                            483
                                                           3,
                                                        $ 3 661

        TOTALS                                          $536 310*          100.


        *This total is $167 less   than the actual payout , due to truncation.
                                                                                    ::"             " .




Of the 576 providers reimbursed      by Medicare for outpatient psychiatric services,       415

(72%) received less than $1,     000. Table                  range of expenditures
                                                  12 shows the                              per

doctor.
                                         TABLE 12
                                     OUTPATIENT CAR
                                  PROVIDER REIMBURSEMENT
                                   WISCONSIN , CY 1982


          Range of         4F   of Doctors   Percent of Amount Paid    % of Dollars
      Reimbursement             in Range      Doctors    to Group         Soen t



                                   415             72%     $ 74. 792            14%

   )$0 - $1.   000
   )$1 000 - $5. 000               143             25%      310. 781            58%

   )$5 000 - $10. 000                                        84. 666            16%


   )$10. 000 - $15. 531                                      66. 238            12%



      TOTALS                       576            100%     $536. 477        100%

                                                                   receive the greatest
The providers receiving the largest total reimbursement did not
                                                                         patients. For
reimbursement for individual patients, i. e., they treated
                                                           many Medicare
example, the most the highest paid doctor (i. e., $15,
                                                           530
                                                          received for an individual
patient was $29l. There were, however, some
                                               providers who received much more for
the care of an  individual beneficiary. The doctor paid the most         for an
                                                                          individual
patient also served the beneficiary   in the state who received the highest Medicare
outpatient reimbursement, i. e., Medicare paid $3, 671.40 for a
                                                                beneficiary served by a
                                                                   who were reimbursed
single provider. Viewed another way, of the eight beneficiaries
                                                            , four were treated by two
more than $1 000, two were treated by only one doctor
 doctors, one was treated by three doctors, and one by four doctors.
 COMPARISON

 The Wisconsin and Washington carriers haveThe
                                            administered the psychiatric coverage
                                               fact that Wisconsin did not apply
 limitation in   significantly different ways..
                                                  and nonphysician services
 procedure codes to distinguish between physicianpsychiatric care during 1982.
 automatically curtailed the volume and cost of outpatient
 The result of its mid- 1983 procedural revisions to
                                                           differentiate between these two
 levels of care is   unknown.
                                                                              less         strict
 Washington, on the other hand, based its discrete procedural applications on 

 federal guidance and paid virtually unrestricted      costs for nonphysician  services
                                                                                A staff
 furnished "incident to " a physician s care. In March 1984 , the Region  X HCF
 queried their headquarters ' Office         of
                                       Coverage Policy for         clarification of the
                                                                                          Section
 regulations. In a May 1984 memorandum, HCF A headquarters responded that
  l861(s) of the Social Security Act:



                                                                           O:.K.­
   has been interpreted to provide that.. nonphysician services must                                      be furnished
                                                          e., they must                                   be furnished
    incident to " a physician s professional services, i.
    as an integral part of a
                 covered physician        s professional service in the course
                 or treatment of an injury or ilness. In the case of a
                                                                              CMHC,
    of diagnosis                                       covered  personal professional
    this means that a physician must first render a 

    service to which the       services of the non physicians can be considered an
    incidental,-               lthough integral, part and the CMHC must submit                                a   claim for
                                                                      s service has
    this service to its Part B carrier. Until a claim for a physician
    been processed by the carrier,  there has been no adjudication of and thus no
    determination made on whether the physician                              s service is in fact             covered
    addition, a physician must continue to provide covered personal professional
    services to the patient periodically and sufficiently often to
                                                                     assess the
    course of treatment and the patient' s                          progress and , where necessary, change
    the treatment regimen.

The result of applying this recent policy clarification in Washington is yet to be seen.
Also, this policy clarification has been disseminated only in response    to Region X'
                                                                     regions.   How this
direct inquiry, with copies of the  memorandum     sent to the other
information is used by each regional HCF A     staff depends entirely on their judgment.
In other words , there is no headquarters    directive to instruct individual carriers to
require physicians to bill for continued personal care periodically
                                                                    and sufficiently often
before nonphysician care                   will be covered.
                                              This allows  for continued variation in the

ways providers bil for and carriers administer outpatient   psychiatric reimbursement.


                                                                                                                        Wisconsin
In comparing the results of their two diverse administrative approaches in
and  Washington, we find disproportionately greater Medicare physchiatric outlay for
Washington even though Wisconsin s Medicare population and expenditures are slightly
larger. Table 13 compares applicable Medicare data for the
                                                           two states.

                                                                  TABLE 13
                                                      WASHINGTON AN WISCONSIN

                                                  MEDICARE PART B PSYCHIATRIC DATA



                                                                                  Number of

                                                                                    Benef' s
                                                                     Total    Reimbursed            Number of
                     Total         Total            Total B        Outpatient    for                Outpatient        Outpatient
                     Part B        Part B
           Psych.          Psych.   Outpatient             Benef'            Dollars
                                                    Payouts         Payouts     Care**              Paid )$250**     Paid )$250**
                   Enrollees*      Payout*
                    479. 014     $219. 625. 401    $4 099 057      $2 968 883            793            1 466         $2. 167. 602

                                                   $1. 732. 924       536. 477        6 694               331              54. 980
                    627. 954     $262 873 703

   Ratio                                                                                1:1              4:1               39:1
   WA:WI              1: 1             1: 1             2:1            6:1

     *Unpublished Data prepared by Health Care Financing Administration, Bureau of Data Management

       and Strategy.
   -Excludes diagnostic expenditures.




                                                                     14 

                                                   CARRIER SURVEY

                                                      PH ASE


PROCEDURAL APPUCA nONS OF THE UMIT
I)lJring Phase - II, Region   Office of Analysis and Inspections staff surveyed by
                                                                     I analyses .! Of
telephone the remaining carriers who were not a part of the Phase
these 42 carriers, 2 39 said they apply the coverage limitation to both physician and
            outpatient psychiatric services. Of the remaining three,nononly one-- Blue
non physician
Shield of California- clear ly distinguishes between physicians and      physicians
                                                                             coverage
                                  Basically, this northern California carrier applies the
applying the limit.
limit to physician services and willpayment
                                      pay for auxiliary
                                            limit.
                                                                                    staff services until the
                                                                         In order to meet the          "inci dent
physician-rendered services reach the
       requirement and to                  avoid unlimited auxiliary staff care without physician
involvement , the carrier requires physicians to                 treat and   bill routinely.

The other two carriers, Blue Shield of Kansas and Blue Shield of Utah, were in the
process of converting their coding systems to the HCF A
                                                         Common Procedure Coding
                                                    discussions if their new systems
System (HCPCS), and did not know at the time of our                            Shield
                     payment limit to both physician and nonphysician                       services. Blue
will apply the
                  began conversion from the Kansas Relative Value                          System to HCPCS in
of Kansas
January 1985. The new                 HCPCS codes include procedure codes which identify services
by nonphysician staff,               but the carrier did not know whether the new system would
                                                            limit. Blue Shield of Utah
exclude or include these auxiliary staff services under the
began converting its old coding system to HCPCS in
                                                         March           Under the old    1985.
system, the carrier did not apply the limit to
                                               nonphysician care. Like Blue Shield of
Kansas, their experience with the new system is too recent
                                                            , and they re not sure how
the limit will be applied. The carrier s spokesman did say, however, that in 1983, the
 HCF A regional office instructed all                 carriers   not to apply the limit to nonphysician-
 rendered care, and the carrier complied under the old
                                                                          system. This HCF A instruction
 was mentioned also by another carrier in Region VII, who
                                                                                said they essentially        ignored

 the instruction because their procedures were already in                      place and continued to apply
 the limit to both physician and auxiliary staff care.


                                          that although their coding systems allow them to
                                                                                                       distinguish
 Eleven other carriers said                                                                            apply the
 whether a          service was          delivered by a physician or nonphysician , they
                                                                         psychiatric
 payment limit to both, thus curtailng the volume and cost of outpatient
                                                             billing problems occur
 services. Many carriers reported that over utilzation and                 who have
 primarily in        community mental health centers (CMHCs). Even those carriers
                                                                           monitor CMHCs
 very tight controls over the outpatient psychiatricorlimit continue to
 closely. For example, some CMHCs bill frequently
                                                        routinely for nonphysician                        care
 without documentation that the services are incident to a physician
                                                                                                  s care. Most
  carriers monitor billing practices through postpayment reviews.

        One carrier studied in Phase I (Blue Shield of Massachusetts) was included in the
        Phase II survey because it also covers Maine , and its administration of claims
         records from Maine was excluded during Phase I.
                                 carriers cover substate geographic areas and     some multi-state
         Note that some
                                                                                Phase II.
         areas. See         Appendix for a listing of the carriers contacted in
Even though    the   statutory payment cap excludes         bothinpatient and diagnostic
psychiatric procedures, carriers do differ in their application of the limit
                                                                             for diagnostic
services. Some carriers said they apply the limit only to outpatient therapeutic care
with no limit on diagnostic services. This practice could be costly if, as was found in
Washington State during Phase I , some providers are billing almost daily for extended
diagnostic treatment, with little or no psychotherapy being documented or billed.
Two other potentially costly issues surfaced during our Phase II            discussions with
carriers:
  Some providers bil for both physician- and nonphysician-rendered psychiatric services
  as medical rather than psychiatric procedures, thus circumventing the payment limit.
  For example, as a result of postpayment reviews of two CMHCs ' claims, one carrier
  (Blue Shield of Western New York) found ancillary personnel were billing office visits
  (i. e., medical codes) which were not being picked up under the psychiatric limit.
  The carrier denied these claims and has recently issued a newsletter warning
  providers that such medical claims will not be paid. Some carriers catch these
  medical codes by reviewing primary diagnosis and treatment codes and applying the
  limit if the primary diagnosis is psychiatric. Other systems , however , won t pick up
  any medical treatment procedures regardless of     who billed for them (i. e., psychiatrist
  or nonpsychiatrist) or   what the original diagnosis was (i. e., psychiatric or medicaD.
- Some psychiatrists practice " gang visits   " to nursing homes and submit suspiciously
   large numbers of therapy    claims. Carrier   attention to this issue is selective.
                           DET AILED CLAIMS RECORDS ANALYSIS

                             PHASE II: NORTHERN CALIFORNIA



The OIG' s copy of   Northern California carrier s source files contains defects which
resulted in lost data for claims paid during the fourth quarter of 1983. The magnitude
of this loss .is unknown and cannot be determined without substantial expenditure of
staff time and .computer resources. The following analysis , therefore , is limited to the
available data, and the results   are conservative.

During calendar year 1983, Medicare Part B        reimbursed 29, 909 Northern California
                     064 for all psychiatric services they received from 3, 406 providers.
beneficiaries $7, 633,
Table 14 shows    the amounts allowed and paid for inpatient and outpatient services.
The ratio of inpatient   to outpatient expenditures is 1:1.


                                        TABLE 14
                    NORTHERN CALIFORNIA PART B PSYCHIATRIC CLAIMS

                                         CY 1983

                                                        Amoun t              Total $

                                                        Allowed                Paid

    Inpatient diagnostic                                   -0-                  -0­
    Inpatient therapeutic                                 625, 000             624 808
    Outpatient diagnostic                                 434 515              339, 250
    Outpatient therapeutic                                055 252                   006

       Total "                                        $10 114 767              633 064


As - in Washington , the Northern California carrier s system differentiated between
physician- and nonphysician-rendered services. Table l5 compares the doctor and staff
expenditures for all beneficiaries reimbursed for outpatient therapeutic care.

                                         TABLE 15

                              PHYSICIAN AN NONPHYSICIAN

                          OUTPATIENT THERAEUTIC EXPENDITURES

                            IN NORTHERN CALIFORNIA , CY 1983



                                  Physician           Nonphysician
                                  Services              Services             Totals
     No.    beneficiaries                812                  906                     909*
     No.    services                 176 124                , 11 7              196 241
     Amount paid                     985 712            $683, 293               669 006



     *This is an unduplicated count of   beneficiaries, some of whom received          both
     physician and nonphysician services.
 Approximately 17% of the    dollars spent on outpatient psychiatric      services   exceeded the
 $250 limit. Table 16 compares the doctor and staff                expenditures for only those
 beneficiaries whose Medicare Part B reimbursement exceeded $250.
                                           TABLE 16
                      CY 1983 OUTPATIENT THERAEUTIC EXPENDITURES
                            FOR BENEFICIARES EXCEEDING CAP
                                  NORTHERN CALIFORNIA

                                     Physician           Nonphysician
                                     Services                 Services          Total s

    No.      beneficiaries                 750                     679               790*

    No.      services                      593                  19, 618              211

    Amount   paid                    $137, 793                $667 061         $804, 854



    *This total represents an unduplicated count of beneficiaries, some              of whom
    received both physician and nonphysician           services.

Less than 3% of the beneficiaries received 22% of the outpatient therapeutic payout,
with an average payment of $1, 019, or $769 over the limit. It' should be noted that
98% of payments for non physician care , were made to beneficiaries whose
reimbursement exceeded the cap.

On the other hand , these 790 beneficiaries whose outpatient therap utic reimbursement
exceeded the     cap were treated by 84 providers (approximately 2% of the 3, 406
providers whom Medicare reimbursed for outpatient psychiatric care). Of these 84,
60% are group practices, primarily CMHCs. A few are psychiatric day care centers or
other types of outpatient      clinics.

Sixteen of the 84 providers received 84% of the Medicare Part B dollars paid for
outpatient psychiatric therapy to over limit beneficiaries. Table 17 illustrates the
billng pattern of these 16 highest paid          providers.
                                                 TABLE 17
                                NORTHERN CALIFORNIA, CY 1983
                        HIGHEST PAID PROVIDERS OF OUTPATIENT THERAY
                         EXPENDITURES FOR OVERLIMIT BENEFICIARES
                           PHYSICIAN VS. NONPHYSICIAN SERVICES

                             sician Treatment                       Nonthvsician Treatment

                 Dollars fF Services       fF Persons          Dollars fF Services    fF Persons

 Provider    A   $ 4 962          633                         $154, 379       469

 Provider    B        676         245                           96, 224       016

 Provider    C        432         301                           72, 810       070

 Provider    D    25 , 504        024            100            42, 125       931

 Provider    E        096         267                           40 , 952      931

 Provider    F        017         355                                117      797

 Provider    G        246         124                                166      796

 Provider    H        031         420                            19 , 488     572

  Provider I          730                                        20, 972      437

  Provider J          150                                        19, 500      480

  Provider   K        350                                            281      477

  Provider   L        572                                           , 731     330

  Provider   M                                                       696      277

  Provider   N        665          148                               996      189

  Provider   0        112                                            305      165

  Provider   P        262                                            713      201


    TOTALS       $66. 877        3 861           458           $605. 456      138         506
Thus, the data reveal that a small percentage of         providers rendering outpatient
psychiatric care are receiving most of the over limit Medicare Part B expenditures , and
most of these are community   mental health clinics or other group practices where most
of the services are provided by   nonphysicians.




                                                                         m.""




                                              19 "
                                         METHODOLOGY



PHASES I and 


                claims were analyzed using programs written in the
                                                                    SAS computer
The Wisconsin                                                 which contained only
language.   An extract of the claims history file was created
                                                       1982.
                                                          This extract was further
psychiatric codes. performed during calendar year
divided into two files-- inpatient and outpatient claims.
                                                                          total payments.
For both files, beneficiaries     were listed in ascending order based on
A paper output was   produced with summary data for     each beneficiary.

The Washington and Northern California claims were analyzed usingall
                                                                  programs written in
                                                                     1983 psychiatric
COBO L.   An  extraction- program  created  a file consisting of
claims. This file was sorted two ways--identify
                                       by provider so that practice patterns could be
                                                patients treated by more than one
characterized and  by  beneficiary  to
psychiatric provider.


Next, each sort was run against a COBOL program which         categorized           each claim
according to place of    service, whether the service was physician- or nonphysician­
rendered and whether the service was diagnostic         or therapeutic. Outpatient
therapeutic services were subtotaled under each beneficiary listing into two
                                                                              classes:
(a) physician- rendered and (b) nonphysician-rendered.

                            and provider activity were written to paper     and ,   in expanded
                                         disk files were downloaded (i. e.,
Summaries of beneficiary
           electronic files.       The                                          electronically
form, to
transferred via telephone   lines) to personal computers and further analyzed using dBase
II and BASIC programs.
                                                            New Hampshire/Vermont
 The Office of Audit performed computerized analyses of the
 and Connecticut CY 1983 and Massachusetts CY   1982  Medicare payment files , using
 Easytrieve computer language.
 PH ASE

 All Medicare    Part B contractors who were       not part of the Phase I analysis were
 surveyed by telephone to inventory their     specific procedural applications in processing
 outpatient psychiatric claims.
                                        APPENDIX
                                 PHASE II CARRIER CONTACTS


CARRIER                                    GEOGRAPHIC COVERAGE

Blue Shield of Massachusetts

                                           Massachusetts ,   Maine
Blue Shield of Rhode Island                Rhode Island
Group   Health , Inc.                      Queens
Blue Shield of Western New York            45 upstate counties

Blue Cross/Blue Shield of
  Greater New York                         16 downstate counties
Triple S
                                  Puerto Rico, Virgin Islands
Prudential                                 New Jersey, Georgia, North Carolina
Pennsylvania Blue Shield                   Pennsylvania , Delaware, D.
Blue Shield of Maryland                    Maryland
Travelers of Virginia                      Virginia
South Carolina Blue     Shield             South Carolina
Equitable                                  Tennessee

Blue Shield of    Alabama                  Alabama

Travelers                                  Mississippi

Florida Blue Shield
                       Florida

Kentucky Blue Shield
                      Kentucky

Travelers
                                  Southeast Minnesota

Blue Cross/Blue Shield of Minnesota
        ll-county metropolitan area

Blue Cross/Blue Shield of Michigan          Michigan
Nationwide Mutual                           Ohio, West Virginia
Mutual Medical                              Indiana

Illnois Health Care Service Corp.           Ilinois

Arkansas Blue Cross/Blue Shield             Arkansas , Louisiana

Aetna                                       Oklahoma

Blue Cross/Blue Shield      of Texas
       Texas

Equi table
                                 New Mexico
 Mutual of Omaha
                           Nebraska

 Blue Shield of Iowa
                       Iowa

 Blue Shield of Kansas City                 Metropolitan Kansas City area in both

                                              Kansas and Missouri

 Blue Shield of Kansas
                     All Kansas except two counties in

                                               Metropolitan Kansas City area

 General American Life                      All Missouri except four counties in
                                               Metropolitan Kansas City area

 Montana Physicians Service
                Montana

 Equitable
                                 Wyoming

 Blue Shield of Utah
                       Utah

 Colorado Blue Shield                       Colorado

 Blue Shield of North Dakota
               North Dakota , South Dakota

 Aetna
                                     Arizona, Nevada

 Aetna
                                     Hawaii
 Blue Shield of California
                 5l northern California counties

 Transamerica Occidental
                   7 southern California counties

 Aetna

 Equitable
                                  Idaho
                                            Oregon ,    Alaska

